THE OFFICE OF CRIMINAL DISTRICT ATTORNEY
GREG WILLIS

March 11, 2021
Hon. Danny Bickell, Deputy Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
RE: Eric Lyle Williams v. Texas (No. 20-7251)
Dear Mr. Bickell:
The petition for a writ of certiorari in the above-captioned case was filed on
February 16, 2021, and placed on the docket on February 25, 2021. The State’s
brief in opposition is due on March 29, 2021.
Under Rule 30.4 of the rules of this Court, the State respectfully requests a
thirty-day extension of time in which to file its brief in opposition.
The need for an extension is due to the undersigned attorney’s capital
docket, non-capital docket, and other work-related commitments. This is the first
extension of time requested by the State. Also, counsel for petitioner has informed
the State that he has no objection to the request.
Thank you for your consideration in this matter.
Respectfully,
/s/ Lisa Braxton Smith
Lisa Braxton Smith (SBT 00787131)
Assistant Criminal District Attorney Pro Tem
Collin County, Texas
Russell A. Steindam Courts Building
2100 Bloomdale Road, Suite 100 | McKinney, Texas 75071 | (p) 972.548.4323 | (f) 214.491.4860 | collincountyda.com

